OIG Investigative Reports, Los Angeles, CA - February 17,2010 - Los Angeles Tax Preparer Accused of Defrauding U.S. With Lies On Visa Applications and False Tax Returns
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States Attorneys Office
Central District of California
United States Attorneys Office
Central District of California
Thom Mrozek
Public Affairs Officer
(213) 894-6947
thom.mrozek@usdoj.gov
Return to the 2010 Press Release Index
Release No. 10-031
February 17, 2010
LOS ANGELES TAX PREPARER ACCUSED OF DEFRAUDING U.S. WITH LIES ON VISA APPLICATIONS AND FALSE TAX RETURNS
A Hancock Park man who is charged with conducting a multi-faceted fraud against several government agencies – including applying for immigration visas with false claims that the aliens would be employed as religious workers in the United States – has pleaded not guilty to a series of charges in a federal grand jury indictment.
Samuel Klein, 58, was arraigned yesterday and entered not guilty pleas to charges of visa fraud, subscribing to false tax returns, making false statements to the United States Department of Education and financial aid fraud.
Samuel Klein is charged with visa fraud for allegedly filing visa applications for clients that falsely claimed they were qualified religious workers who were wanted for employment by New York religious institutions. According to a search warrant affidavit previously filed in this case, investigators developed information that Samuel Klein, who operated a Wilshire Boulevard business called Smartax, filed bogus petitions for religious worker visas under the names of synagogues or Jewish community groups, claiming that the religious institutions needed his clients as religious workers. In another case detailed in the indictment, Samuel Klein submitted a visa application that claimed an alien was needed to work for a New York company when, in truth, the alien had no plans to work for the company and did not have the qualifications claimed on the petition.
Samuel Kleins wife, Zipora Klein, 57, who resides with her husband in Hancock Park, was also arraigned yesterday and entered not guilty pleas to four counts of subscribing to false tax returns for the years 2003 through 2006. In an indictment returned by a federal grand jury on January 7, both Kleins are accused of filing false tax returns that substantially understated their income on four annual tax returns filed under penalty of perjury with the Internal Revenue Service.
Additionally, the indictment alleges that Samuel Klein applied for federal financial aid in 2006, claiming that he and his wife’s federal income tax return showed that the couple earned $38,902 in 2005. But when he applied for the financial aid, the indictment alleges, Samuel Klein had not filed a 2005 tax return and in fact the couple earned more than $190,000 that year.
At Tuesdays arraignment, the case against the Kleins was assigned to United States District Judge R. Gary Klausner, who scheduled a trial for March 16.
An indictment contains allegations that a defendant has committed a crime.  Every defendant is presumed to be innocent until proven guilty in court.
Samuel Klein is named in 11 counts in the indictment, and if he is convicted of all charges he faces a statutory maximum 72 years in federal prison. If convicted of the four tax charges, Zipora Klein faces a statutory maximum 12 years in federal prison.
The investigation in this case is being conducted by IRS - Criminal Investigation, U.S. Immigration and Customs Enforcement, and the United States Department of Education.
#####
Release No. 10-031
Return to the 2010 Press Release Index
Printable view
Last Modified: 02/19/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov